   U.S. DEPARTMENT OF COMMERCE
             Office of Inspector General




  BUREAUOF THE CENSUS


   Sacramento Dress Rehearsal
Identifies Needed Improvements
   in Personnel Administration



 Audit Report No.STL-11052-8-0001/September 1998




                  Seattle Regional Office of Audit




 FOR PUBLIC RELEASE
u.s. Department of Commerce                                                          Audit Report No. STL-11052-8-0001
OUice ofInspector General                                                                               September 1998


                                                               CONTENTS

                                                                                                                                  Page

EXECUTIVE SUMMARY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   1



INTRODUCTION                                                                                                                         1


PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              1


FINDINGS AND RECOMMENDATIONS                                                                                                         3


     I.	 RECRUITING/SCREENINGIHIRING GOALS AND OBJECTIVES ACHIEVED,

         BUT SOME PROCEDURES NEED IMPROVEMENT. . . . . . . . . . . . . . . . . . . . .                                               3


          Recommendations                                                                                                            5

          Agency Response                                                                                                            6

          OIG Comments. . .. .. . . . . . . .. .. . . . .. . . .. . . . . .. . . . . . . . . . . . . .. . . . . . . .                7


     II.	 PAYROLL PROCESSING NEEDS TO BE IMPROVED                                                                                    8


          Recommendations                                                                                                           11

          Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     11

          OIG Comments. . . . .. . .. .. . .. ... . . . . .. .. . . . . . . . .. . . . . . . . . . . . .. . . . ..                  13


     III. SUPPLEMENTAL PAYMENT PROCESS WAS SLOW AND CONFUSING . .                                                                   14


          Recommendations                                                                                                           15

          Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     15

          OIG Comments                                                                                                              16


     IV. EMPLOYEE EVALUATIONS WERE NOT DONE	                                                                                        17


          Recommendations                                                                                                           18

          Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       18

          OIG Comments                                                                                                              19


     V.	 POLICIES AND PROCEDURES NEED

         TO BE DOCUMENTED AND ORGANIZED . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     20


          Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      20

          Agency Response                                                                                    ,........              21

          OIG Response                                                                                                              21


     APPENDIX I             CENSUS BUREAU'S RESPONSE TO DRAFT AUDIT REPORT
u.s. Department of Commerce                                 Audit Report No. STL-11052-8-0001
Office ofInspector General                                                     September 1998


                                  EXECUTIVE SUMMARY

The Bureau of the Census is mandated by the U.S. Constitution to provide the population counts
needed to reapportion the House of Representatives every 10 years. The bureau fulfills this
mandate by performing a decennial census. Before each decennial census, the bureau performs a
dress rehearsal of planned operations, systems, procedures, and workflow. The 1998 Dress
Rehearsal is designed to be the bureau's major test of all previously tested and some untested
operations.. The bureau is performing its dress rehearsals at Sacramento, California; Columbia,
South Carolina; and the Menominee Indian Reservation in Keshena, Wisconsin.

The purpose of our review was to assess the administrative practices related to personnel at the
Sacramento dress rehearsal. We observed administrative processes, interviewed staff, and
evaluated documents at both the Seattle Regional Census Center and the Sacramento Local
Census Office. Overall, we found that the administrative procedures were in compliance with
Census guidelines, and were meeting the goals and objectives of the dress rehearsal. Our review
did identify the need for some improvements in the following areas:

  •	   Recruiting/screening/hiring achieved goals, but some procedures need improvement.
       Census estimated that the Sacramento dress rehearsal would require a pool of
       approximately 7,000 candidates. We found that the recruiting/screeninglhiring procedures
       achieved the desired goals and objectives. The procedures at Sacramento resulted in an
       acceptable pool of candidates, the necessary numbers of workers were screened and hired,
       and overall the workforce was qualified and adequate for the required tasks. We did
       identify some internal controls related to verification procedures of applicants' prior
       employment and foreign language capabilities that need improvement. (See page 3.)

  •	   Payroll processing needs to be improved. The dress rehearsal disclosed several
       problems in the Sacramento office's payroll processing system. The most serious problem
       is that the system accepts, processes, and pays employees who submit duplicate time
       sheets. We also found that documentation of employee time spent on training, overtime,
       and travel was not in compliance with Census procedures. In addition, the VISA check
       program needs additional clarification and guidance to eliminate unauthorized uses and
       correct errors and omissions. (See page 8.)

  •	   Supplemental Payment Process was slow and confusing. The supplemental payment
       process is an employee incentive program that rewards field staff for achieving and
       maintaining a minimum productivity level in completing questionnaires. The process was
       not well understood by regional or local census staff, payments to field staff were slow
       and may not have been accurate, and quality control procedures were not being
       completely implemented. Consequently, the benefits of incentive pay may be lost.
       Problems with the computer system and unclear instructions and direction were identified
       as causing the process to operate inefficiently. (See page 14.)

                                                l
u.s. Department of Commerce                                Audit Report No. STL-l1052-8-0001
Omce ofInspector General                                                      September 1998
  •	   Employee evaluations were not done. Employee evaluations were not conducted for
       individuals employed in the Sacramento dress rehearsal. The Sacramento office hired
       about 900 employees during the dress rehearsal. Many employees worked in several
       Census operations during the dress rehearsal and will have the opportunity to be rehired
       for operations during the decennial census. However, because the local office did not
       complete employee evaluations, the bureau cannot easily identify which terminated
       employees should be rehired and which ones should not. We found that supervisors and
       managers were informally gathering lists of possible rehires. Census has the forms and
       database to formalize the process so that trained, experienced, and productive personnel
       can be identified for rehire. Another important reason for having accurate and complete
       information on employee terminations is to be able to adequately handle, and where
       appropriate, refute, unemployment claims. (See page 17.)

  •	   Policies and procedures need to be documented and organized. Many administrative
       decisions, instructions, and procedures related to the Sacramento dress rehearsal were
       communicated orally, and were not organized and documented as required by sound
       management practices. We found at the Seattle regional center that documentation of
       policies and procedures was not well organized or up to date. We found that
       documentation at the Sacramento local office was generally adequate except for orally
       transmitted instructions and directives. (See page 20.)

Our recommendations are on pages 5, 11, 15, 18, and 20.

In response to the draft audit report, Census officials generally concurred with our
recommendations, indicated that the recommendations had been resolved, or identified a
reasonable alternative course of action. We commend the Bureau for its prompt and positive
responses to our recommendations. However, the bureau did not concur with our
recommendations regarding performance evaluations. After carefully considering the bureau's
comments, we reaffirm those recommendations.

We have summarized the bureau's responses and have provided our comments after the
appropriate sections of this report. We have included the bureau's complete response as
Appendix 1.




                                               ii
u.s. Department of Commerce                                  Audit Report No. STL-II052-8-0001
Office ofInspector General                                                      September 1998


                                       INTRODUCTION

The Bureau of the Census is mandated by the U.S. Constitution to provide the population counts
needed to reapportion the House of Representatives every 10 years. The bureau fulfills this
mandate by performing a decennial census, the nation's largest statistical data-gathering program,
which provides data that affects governments, businesses, and private citizens.

Prior to each decennial census, the bureau traditionally performs a dress rehearsal of planned
operations, systems, procedures, and workflow. Although the bureau tested some planned Census
2000 operations in 1995 and 1996, the 1998 dress rehearsal is designed to be the bureau's major
test of all previously tested and some untested operations. The bureau is performing its dress
rehearsals at Sacramento, California; Columbia, South Carolina; and the Menominee Indian
Reservation in Keshena, Wisconsin. This report discusses our review of administrative
procedures during the Sacramento dress rehearsal.

                                    PURPOSE AND SCOPE

The purpose of our audit was to assess the administrative practices related to personnel at the
Sacramento dress rehearsal. We observed administrative processes, interviewed staff, and
evaluated documents at both the Seattle Regional Census Center and the Sacramento
Local Census Office. We performed our on-site field work from March 16 to
July 9, 1998, at the census dress rehearsal sites in Seattle and Sacramento. Our review evaluated
processes used throughout the dress rehearsal period.

At the Seattle regional center, we interviewed personnel about procedures, practices, policies, and
rationales for actions. We reviewed background documents, and analyzed census organization
and the dress rehearsal processes. At the Sacramento local office, we reviewed the internal
controls relating to the personnel management system, recruiting, hiring, training, payroll, travel
and miscellaneous expense reimbursement. We found weaknesses in the internal controls and
administrative management processes as discussed in the Findings and Recommendations section
of our report.

In conducting our review, we relied on computer-processed data contained in the bureau's
PAMS/ADAMS (Pre-application Administrative Management System!Administrative Decennial
Administrative Management System) reports. We verified the accuracy of the data by
comparing a sample of Census employee records to the computer data file. Despite finding some
minor errors, we concluded that the data was sufficiently reliable for our analysis.

We did not evaluate compliance with federal laws and regulations, as our review objective was to
assess administrative processes. Our review evaluated compliance with Census and generally
accepted administrative and management procedures. With respect to items not tested, nothing



                                                 1

u.s. Department ofCommerce                                   Audit Report No. STL-11052-8-0001
Office ofInspector General                                                      September 1998

came to our attention that caused us to believe that the Seattle and Sacramento offices had not
complied, in all material respects, with the appropriate provisions.

This review was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.




                                                 2

u.s. Department of Commerce                                  Audit Report No. STL-l1052-8-0001
Dmce ofInspector General                                                        September 1998


                          FINDINGS AND RECOMMENDATIONS

I.	 RECRUITING/SCREENINGIHIRING GOALS AND OBJECTIVES ACHIEVED,
    BUT SOME PROCEDURES NEED IMPROVEMENT

Conducting a census requires large numbers of temporary workers. The bureau estimates that it
will need approximately 500,000 temporary employees at the local offices to conduct Census
2000. The temporary workers fill positions as local office managers, enumerators, partnership
specialists, media specialists, and clerks.

A pool of pre-tested applicants must be available to meet the temporary hiring demands. Census
managers believe that 10 applicants must be available for each expected hire in order to ensure an
adequate supply of acceptable candidates and to meet the expected turnover. Census estimated
that the Sacramento dress rehearsal would require a pool of approximately 7,000 candidates.

We found that the recruiting/screeninglhiring procedures during the Sacramento dress rehearsal
achieved the desired goals and objectives. The procedures at Sacramento resulted in an
acceptable pool of candidates, the necessary numbers of workers were screened and hired, and
overall the workforce was qualified and adequate for the required tasks, as indicated by the fact
that only a few employees were terminated for misconduct or poor performance.

In reviewing the personnel files of the 80 local office employees terminated as of June 3, 1998,
we found that 41 were terminated because their six-month period of appointment expired, 20
resigned for personal reasons, 12 resigned for unknown reasons, and only 7 were terminated for
poor job performance. Although the local office successfully recruited and screened an adequate
pool of candidates and hired the necessary number of workers, we did identify the following
internal control and other procedural areas where improvements can be made.

Verification Procedures for Applicants
Could Be Improved

All applicant information is entered in the administrative management database from the Census
Employment Inquiry form, which contains 31 questions addressing such matters as prior work
experience, background information, language ability, and personal data. Also required is a
written, multiple-choice test that measures the knowledge, skills, and abilities required to perform
a variety of Census jobs. When individual test results are obtained, the raw score is penciled onto
the application and also entered into the database.

The names of all applicants are submitted to Census headquarters for a Decennial Applicant
Name Check, which is a criminal background review requiring three to five days to complete.
Individuals passing this review become available for hire.



                                                 3

u.s. Department ofCommerce                                    Audit Report No. STL-11052-8-0001
Office ofInspector General                                                       September 1998
To evaluate the effectiveness, reliability, and accuracy of the Census employment screening and
hiring process, we selected a random sample of 30 employees from a universe of 329 hired by the
Sacramento office as of April 21, 1998. For each of these employees, we reviewed the
completeness of the application and compared the data entered into the administrative
management database with the data on the application. We tested the bureau's compliance with
its procedures for verification of prior employment and non-English language skills data shown
on the application.

We found that applications were generally complete and accurately entered into the database.
Errors we found did not negatively affect the qualification of the applicants or their eligibility to
be employed, and therefore were considered to be minor procedural errors. For example, three
applications did not indicate the individual's raw score for the test, although the management
database contained the converted test scores. And, in four instances, data fields in the application
were completed, but the respective database fields were blank.

The bureau's verification of applicant data was less complete, and not in compliance with
established procedures. According to Census procedures, verification of prior employment and
language ability is required to be documented in the applicant's selection guide-form D-269.
Yet, seven of the 30 employee files were missing job selection guides entirely. Other instances of
missing verification data included:

  •	   Fifteen of the applications did not have evidence that prior employers were contacted.
       Determining employee reliability and honesty is essential to achieve a reliable workforce.

  •	   Nine of the 10 employees claiming a non-English language capability did not have any
       documentation or indication that their language ability was verified. Verifying the foreign
       language ability of applicants is necessary to ensure that Census questionnaires can be
       administered to non-English speaking residents, and therefore is essential to achieving a
       qualified workforce.

For those applicants whose employers were contacted, one former employer told the interviewer
that the applicant was unreliable and did not show up for work. Another employer confirmed that
an applicant had once been employed, but would not be rehired. In another case, an employer
could not recall the applicant. In all three cases, the applicants was hired. We believe there was
insufficient supervisory review of these three hiring decisions.

Only a Few Applicants with Language Skills
Were Missed by the Administrative Management Database

A major challenge in Sacramento was to recruit sufficient workers with foreign language skills
because the dress rehearsal included many neighborhoods where English is not the primary
language. Workers with skills in various foreign languages are critical to successfully completing
census follow-up work in these neighborhoods. We conducted an analysis to test the ability of

                                                  4

u.s. Department of Commerce                                   Audit Report No. STL-11052-8-0001
Omce ofInspector General                                                         September 1998

the administrative management system to generate a complete and accurate list of qualified
applicants with language abilities.

Our analysis indicated that the system produced an adequate listing of applicants with foreign
language skills. Only a few potential candidates were missed by the current procedures. We
found that the reasons candidates' language skills were not identified included failures to pass the
Decennial Applicant Name Check, errors by the database entry clerks, and instances where the
actual language or dialect spoken by the candidate differed from the information keyed into the
system.

Authorization Access for the Administrative
Management System Needs Restriction

Another concern is employees' accessibility to the administrative management system.
Currently, data processing users have wide access to the Census system. Sacramento managers
told us the following problems occurred: changed settings to printers, unauthorized entry to
program data panels, unauthorized changes to employee files, changes in payroll records, and
unauthorized operation of the reset/reboot and the on/off processing unit buttons. The result of
such abuse can lead to inaccurate candidate files, system downtime, and system failures.

Recommendations

We recommend that the Acting Director of the Bureau of the Census ensure that:

1.	 All applicants' prior employment and foreign language capabilities are verified as required by
    procedures.

2.	 Selection guides are completed and included in each applicant's file as required by Census
    procedures.

3.	 Applicant hiring decisions are reviewed by supervisors when questions arise regarding the
    suitability of applicants.

4.	 Language skills are correctly identified and keyed into the administrative system.

5.	 Access to the administrative management system databases is better controlled.

Agency Response

1.	 Ensure that all applicants' prior employment andforeign language capabilities are verified
    as required by procedures.

    The Bureau concurs: The D-517, Testing and Selecting Manual, provides procedures for
    conducting preemployment reference checks, as well as procedural guidance for evaluating
    bilingual applicants' English language proficiency when language is determined to be a
    selective factor by the selecting official. The Census Bureau is in the process of reviewing

                                                  5

U.S. Department ofCommerce                                  Audit Report No. STL-l1052-8-0001
Office ofInspector General                                                     September 1998
   our procedures for preemployment reference checks, and we will reinforce the importance of
   following these procedures in a Regional Census Center Administrative Memorandum to all
   regional directors.

2.	 Ensure that all selection guides are completed and included in each applicant's files as
    required by Census procedures.

   The Bureau concurs: Existing selection guides (D-269A-D) are intended to aid selecting
   officials in determining which applicants are best qualified for Local Census Office (LCO)
   positions. The Census Bureau will reinforce the requirement for using selection guides to
   interview all qualified candidates to ensure selections are made in accordance with merit
   system principles and EEO guidelines for fair and equitable treatment. The Census Bureau
   will underscore the importance of this issue and restate the need for management to ensure
   the inclusion of completed selection guides in applicant files through the issuance of a
   Regional Census Center (RCC), Administrative Memorandum to be issued to all regional
   directors.

3.	 Ensure that applicant-hiring decisions are reviewed by supervisors when questions arise
    regarding the suitability ofapplicants.

   The Bureau concurs: Selection Aid instructions include guidance to selecting clerks on
   reviewing applications for employment suitability. Procedural guidance provides for a
   second-level review (by supervisory personnel) BEFORE applicants are determined to be
   unsuitable for hiring. Many factors are considered, including a review of selection interview
   results, reference checks with previous employers, and successful completion of a criminal
   history background check. The Field Division recently distributed a Regional Census Center
   Administrative Memorandum that provides additional guidance on making suitability
   determinations, including the reviews by higher-level managers, to ensure fair and equitable
   treatment of all applicants. For Census 2000 operations, the Census Bureau will update the
   administrative and recruiting office manuals to reflect the additional guidance provided in the
   memorandum.

4.	 Ensure that language skills are correctly identified and keyed into the administrative
    system.

   The Bureau concurs: All applicants complete the BC-170, Census Employment Inquiry,
   which asks the applicants to indicate his or her ability to speak a language other than English
   and to identify the degree of proficiency. Applicant data are keyed and/or scanned into the
   automated Preemployment Administrative Management System (PAMS). In addition,
   procedural guidance instructs the recruiting assistants to review applications at the time of
   testing to ensure all items are completed. The Census Bureau will further reinforce this
   requirement by addressing the importance of the application review process and subsequent
   data capture of all items in a Regional Census Center Administrative Management
   Memorandum.




                                                6
u.s. Department ofCommerce                                 Audit Report No. STL-11052-8-0001
Omce ofInspector General                                                      September 1998

5. Ensure access to the administrative management system databases is better controlled.

   The Bureau concurs: Currently, access to the PAMS/ADAMS database is controlled by the
   P AMSIADAMS staff at headquarters. The Regional Census Center Automation Supervisor is
   responsible for coordinating all requests for user identification with the headquarters staff.
   For Census 2000, we are implementing internal auditing procedures that will track all changes
   in the P AMSIADAMS to the user level to ensure accountability for all personnel and payroll
   transactions. The Field division will update the D-581, PAMSIADAMS Operating Guide, to
   include the user classes with appropriate controls when determining user classifications.

OIG Comments

We commend the Bureau for initiating actions to address our recommendations. The actions
taken, in process, or planned will adequately address the recommendations.




                                               7

u.s. Department of Commerce                                Audit Report No. STL-l1052-8-0001
Office ofInspector General                                                    September 1998
II. PAYROLL PROCESSING NEEDS TO BE IMPROVED

The dress rehearsal disclosed several problems in the local office's payroll processing system.

The most serious problem is that the system accepts, processes, and pays employees who submit

duplicate time sheets. As currently designed, the automated administrative management system

does not identify duplicate payments. Also, having audit clerks reviewing each payroll form did

not identify the duplicate payments, and is not cost effective.


Our review of payroll processing also found that documentation of employee time spent in

training, overtime, and travel was not in compliance with Census procedures. In addition, the

VISA check program needs additional clarification and guidance to eliminate unauthorized uses

and correct errors and omissions.


Administrative Management System Allows

Duplicate Payroll and Expense Payments


The administrative management system is programmed to identify and trigger an error message if

employees submit time sheets totaling more than 8 hours per day or 40 hours per week.

However, the system is not programmed to identify employees who submit duplicate or

overlapping time sheets totaling less than these figures.


During the dress rehearsal, the Sacramento administrative staff detected duplicate time sheets

during routine filing of original time and attendance forms. The local managers initiated a

manual review of all time sheets to determine the extent of the problem. The review found 121

instances of duplicate and overlapping employee time sheets totaling $1,672. The duplicate time

sheets were created when employees were reassigned to different geographic areas or tasks and

different crew leaders during the same day. The daily time sheet form (D-308) provides only one

data field for each geographic an~a and task. Rather than allocating the hours worked to the

different areas or tasks, employees submitted more than one time sheet, sometimes with

overlapping hours for different areas or tasks. The different time sheets were then signed by

different crew leaders and submitted for processing.


Payroll Audit Function Did Not Identify

Duplicate Payments


Sacramento audit clerks reviewed substantially all of the daily payroll forms. This function did

not identify the duplicate payments discussed above. We reviewed the daily payroll forms for our

sample of 30 employees. Most errors corrected by the audit clerks were changes in the number of

hours worked based on the auditor clerk's review of the beginning and ending times reported on

the form. The beginning and ending times reported are not entered into the employee database.

In our opinion, more cost effective checks could be obtained by modifying the management

system with an additional edit check to compare beginning and ending times with the hours

submitted on the form.





                                                8

U.S. Department of Commerce                                    Audit Report No. STL-11052-8-0001
Office ofInspector General                                                        September 1998
Payroll Records Need Better Support
for Time and Costs

The processing of daily employee payroll time sheets appeared to be adequate except for minor
errors and omissions. However, our review of time sheets for a sample of 30 employees showed
that documentation of employee time spent in training, overtime, and travel costs was not in
compliance with Census procedures.

Complete training records were not kept by the Sacramento office or the Seattle regional office.
The 30 employees reviewed allocated a total of984 hours to training, but only 570 (58 percent) of
the hours could be verified by available training records. The other 414 hours (42 percent) were
unverified and totaled about $3,500 of personnel cost (414 hours multiplied by $8.50, an
enumerator's starting hourly wage).

Census personnel procedures require that employees be paid accurately, which requires adequate
support for time reported. The records to support training provided by the Sacramento office
consisted of training class attendance lists, dates, locations, and instructors. Rosters for training
held at the beginning of the dress rehearsal period appear to be the most incomplete, possibly
because of the high turnover rate among recruiting staff.

Authorization for employee overtime was not documented in most instances. Our review
found that 66 percent (82 of 124 hours) of overtime was processed and paid even though it had
not been authorized or documented by an approved Overtime Authorization (Form CD-81).
Census procedures require that the CD-81 be approved before overtime is incurred. The
undocumented/unauthorized overtime hours are estimated to cost about $1,055 (82.75 hours
multiplied by $12.75, an enumerator's hourly overtime wage rate).

Also, Census guidelines require that travel expenses over $5 be supported by receipts. However,
our review showed that only about 40 percent of the travel expenses exceeding $5 were supported
by receipts.

VISA Check Program Not
Complying with Procedures

The purpose of the VISA check program is to provide advances so that employees can travel to
training or their initial work location. Our review of the program during the dress rehearsal found
several instances of non-compliance with established procedures.

At the time of our review, 206 VISA checks had been issued with a total value of$17,875, for an
average of about $87 a check. Nineteen checks had been returned and voided. Program guidance
in the administrative management system's manual states that all employees are eligible to
receive an advance, including clerks. The checks are limited to an amount equal to six hours of
pay, which for Sacramento would be $75 for enumerators. The checks are completed by the local
office Assistant Manager for Administration and authorized by the local Office Manager. A
hand-written check register, maintained by the Assistant Manager, contains the information
stipulated by the manual--check number, issue date, employee name, social security number,

                                                  9

u.s. Department of Commerce                                 Audit Report No. STL-11052-8-0001
Office ofInspector General                                                     September 1998

check amount, and comments. A check receipt log recording the employee name, check amount,
date of receipt, and employee signature is obtained to document check disbursement.

We examined the security and storage of unissued checks, reviewed the procedures for check
issuance and receipt, and reconciled the checks written and cashed. Generally, we found the
program followed established procedures. However, we also identified the following instances of
noncompliance with procedures:

  •	   Some VISA checks were issued to employees because their payroll checks were late. In·
       36 instances, VISA checks were issued due to late payroll in amounts of $100, and one
       employee received three $100 checks at the same time. No written documentation
       authorizing either the additional purpose or the larger amounts was available. The
       Assistant Manager for Administration stated that oral authorization for these actions was
       obtained from the regional census center.

  •	   Some checks could not be accounted for. Three of the 19 checks returned could not be
       independently verified as being voided. According to the Assistant Manager, the three
       checks were voided and destroyed in compliance with the manual instructions. The other
       16 were voided and retained with the copies of the checks at the request of the Sacramento
       manager. The administrative management system's manual states that checks not issued
       should be voided, destroyed, and disposed of. However, we believe that disposing of
       unissued checks prevents full verification and accountability for all checks.

  •	   Some checks were issued without using proper procedures, thereby increasing the risk of
       misappropriation or misuse of funds and potentially limiting recovery of funds. Of the
       206 checks issued, the check receipt log was improperly completed in 15 instances as
       follows: No employee signature was obtained (4 instances); individuals other than the
       employees were allowed to sign for receipt of the check (4 instances); the signature did
       not resemble the name ofthe employee (l instance); the check number listed on the check
       receipt log was incorrect (4 instances); and instead of the receipt log being used, the
       employees certified receipt on separate pieces of paper, which could be more easily lost or
       misplaced (2 instances).

Recommendations

We recommend that the Acting Director of the Bureau of the Census ensure that:

1.	 The daily time sheet (Form D-308) be modified so that time worked by an employee in
    multiple assignment areas on a single day can be recorded on one form.

2.	 The automated pay system (ADAMS) be modified so that multiple daily time sheets for an
    I employee are flagged on an exception report for review and validation by an appropriate

      official.

3.	 Complete training records are kept so that Census can compare the attendance records with
    the daily payroll sheets.

                                               10

u.s. Department ofCommerce                                  Audit Report No. STL-l1052-8-0001
Office ofInspector General                                                     September 1998

4.	 Procedures be modified so that managers have an option to either give advanced written
    approval for overtime or approve a limited amount of overtime, after the fact, when an
    employee can adequately document that advance approval was not practical and that the
    overtime was necessary and the most efficient use of government funds for accomplishing an
    assigned task.

5.	 Census does not reimburse employees for expenses over $5 if receipts are not attached to

    payroll forms.


6.	 Specific procedures be published to require that all parts of a check be completed when

    issued, and that distribution of the checks be adequately controlled and safeguarded, which

    includes maintaining a check register.


Agency Response

1.	 Ensure that the daily time sheet (Form D-308) is modified so that time worked by an
   employee in multiple assignment areas on a single day can be recorded on one form.

   Problem resolved: The Census Bureau has lifted the requirement that enumerators submit
   multiple time sheets for multiple assignments. In Census 2000, enumerators will submit one
   time sheet for the entire workday.

2.	 Ensure that the automated pay systems (ADAMS) be modified so that multiple daily time
    sheets for an employee are flagged on an exception report for review and validation by an
    appropriate official.

   The Bureau concurs: The Census Bureau will review current procedures and system
   requirements needed to develop an edit that will identify multiple and/or duplicate time sheets
   submitted for the same day and generate an exception list for review by appropriate
   payroll/personnel staff.

3.	 Ensure that complete training records are kept so that Census can compare the attendance
    records with the daily payroll sheets.

   The Bureau agrees that the issue is important, but believes it is better addressed through
   the following: The current system already includes a built-in check that ties actual training
   participation of selected employees to the payroll process and ensures that selected employees
   who are paid for training activities actually reported to training. Procedures have been
   implemented to address this concern. The Census Bureau has made modifications to PAMS
   to require the automated creation of the D-275, Record of Training, when applicants are
   selected for positions. The D-275 is printed and attached to the appointment folders for use
   by the trainers (Crew Leaders). Trainers are instructed to indicate the applicant's status on
   the D-275 (that is, whether or not the applicant showed up for training). The daily pay and
   work record (D-308) will not be accepted unless the selectee attended training and the
   Trainer/Crew Leader has signed the D-308. The D-275 is used to update the applicant's


                                                11
u.s. Department of Commerce                                Audit Report No. STL-11052-8-0001
Omce ofInspector General                                                      September 1998

   status in the PAMS/ADAMS system, and without the status being updated daily, pay sheets
   are not accepted.

4.	 Ensure that procedures are modified so that managers have an option to either give
    advanced written approval for overtime or approve a limited amount ofovertime, after the
    fact, when an employee can adequately document that advance approval was not practical
    and that the overtime was necessary and the most efficient use ofgovernmentfunds for
    accomplishing an assigned task.

   The Bureau concurs: The Census Bureau will send a Regional Census Center
   Administrative Management Memorandum to the regional directors documenting the existing
   overtime procedures. Overtime can be approved verbally in advance by the Area Managers,
   and followed up with written approval on Form CD-81, Requestfor Authorization of
   Overtime and Compensatory Hours, by the regional director or the assistant regional census
   manager. The Census Bureau will provide enough flexibility at the regional level to approve
   a limited amount of overtime after the fact, as justified, on a case-by-case basis. However,
   the Census Bureau is not inclined to establish a broad policy on this issue due to the large
   numbers of employees expected to be hired for Census 2000, and the opportunities such a
   policy would create for fraud and abuse.

5.	 Ensure that Census does not reimburse employees for expenses over $5 ifreceipts are not
    attached to payrollforms.

   The Bureau concurs: Currently, Census Bureau auditing procedures require clerks to
   disallow claims over $5 if receipts are not attached. For Census 2000, the Census Bureau will
   modify the ADAMS to give a warning message to data entry clerks who key in the amount of
   reimbursements to remind them of the documentation requirement. In addition, the Census
   Bureau will reemphasize this requirement in a Regional Census Center Administrative
   Memorandum to the regional directors.

6.	 Ensure that specific procedures be published to require that all parts ofa check be
    completed when issued, and that distribution be adequately controlled and safeguarded,
    which includes maintaining a check register.

   Problem resolved: For Census 2000 address listing, the Census Bureau has canceled the use
   of the VISA check program and replaced the VISA checks with American Express Travelers
   Checks. The Census Bureau has issued revised program guidance and implementation
   instructions in a Regional Census Center Administrative Memorandum to all regional
   directors. Administrative control procedures are in place that include safeguarding checks in
   a locked safe with controlled and limited access, control registers that identify travelers
   checks serial numbers, date of issuance, and signature of employee (certifying the receipt of
   the check). The Field Division's Decennial Personnel/Payroll staff at headquarters, along
   with the Finance Division, are monitoring the issuance of the checks, as well as reviewing
   weekly payroll deduction registers produced by the ADAMS to ensure the deductions are
   being made by Regional Census Center (RCC) administrative staff.


                                               12
u.s. Department ofCommerce                                   Audit Report No. STL-l1052-8-0001
Omce ofInspector General                                                        September 1998
OIG Comments

We commend the Bureau for initiating actions to adequately address our recommendations. The
actions taken, in process, or planned will adequately address recommendations #2-6. With
respect to recommendation #1, implementation of that recommendation would enable the bureau
to continue its previous method of tracking each assignment's work area. However, we defer to
Census officials' judgment in lifting the requirement for enumerators to submit multiple time
sheets for multiple assignments. Therefore, it will not be necessary for the bureau's audit action
plan prepared in response to this final report to address recommendation #1.




                                                13

u.s. Department ofCommerce                                   Audit Report No. STL-l1052-8-0001
Office ofInspector General                                                      September 1998
III. SUPPLEMENTAL PAYMENT PROCESS WAS SLOW AND CONFUSING

The Supplemental Payment Process is an employee incentive program that rewards field staff for
achieving and maintaining a minimum productivity level for completing questionnaires. The
process was not well understood by regional or local census staff, payments to field staff may not
have been accurate and were slow in being made, and quality control procedures were not being
completely implemented. Many of the benefits of incentive pay may be lost because payments
are slow in being made, employee eligibility is not being accurately determined, and the accurate
amounts of payments cannot be verified. Problems with the computer system and unclear
direction were identified as causing the process to run inefficiently.

Supplemental bonus payments are available for the non-response follow-up operation and are
payable on a weekly production basis and on a one-time basis for the entire period of the
operation. Employees eligible for the weekly payment must complete all assignments, maintain a
minimum production rate of 1.75 cases per hour, remain available for additional assignments,
pass an internal quality review, and work at least six hours on the weekend. For example, for
meeting the weekly bonus criteria, an enumerator will receive a weekly bonus of $1.00 for each
questionnaire correctly completed. The end of the operation bonus payment requires enumerators
to work an average of six hours per available weekend during the period of non-response follow­
up, and maintain an average productivity level of at least 1.75 cases per hour over the period. The
bonus pay for meeting this criteria is $1.35 for each correctly completed questionnaire.

The staff at the Sacramento office and the Seattle regional center were unsure as to whether the
process was operating as intended. Neither regional nor local Census officials could clearly
explain and demonstrate how the process should work. They also lacked confidence in the
accuracy of the list and could not verify the accuracy of the bonus amounts for individuals listed
on the supplemental payment report. The officials attributed their lack of confidence to program
weaknesses and software errors, such as weekend hours being incorrectly identified and
computed.

The process's internal quality review consists of a computer analysis of the submitted
questionnaires and a more extensive manual review by a local operations supervisor of
questionable cases, which are flagged by computer analysis. All questionable cases should be
deducted from an employee's weekly and total production quantities. We found that the quality
reviews were being conducted but questionable cases were not being deducted from employee
production levels. The local operations staff stated that they were instructed by Census
headquarters to not reduce employee productivity levels for questionable cases, thereby
potentially allowing employees to be paid for false productivity levels.

In its July 7, 1998, supplemental payment report, Census listed 351 employees at the Sacramento
office as being eligible for supplemental pay: 316 enumerators eligible for the weekly bonus pay,
and 9 clerical staff and 26 enumerators eligible for the end-of-operation bonus. However, the
Assistant Manager for Administration deemed the report inaccurate because a low number of
weekend hours was cited as worked during the report period, and the period covered eight days.
To verify the accuracy of the report, Sacramento staff were manually reviewing the daily
production reports for all 630 enumerators.

                                                14
u.s. Department ofCommerce                                   Audit Report No. STL-11052-8-0001
Office o(Inspector General                                                      September 1998
Our review of a random sample of 25 local office employees included 11 enumerators who
qualified for the weekly bonus during the non-response follow-up. As of July 14, 1998 (18 days
after the follow-up had ended), only 2 of 11 enumerators identified as being eligible had actually
received bonus payments.

Recommendations

We recommend that the Acting Director of the Bureau of the Census ensure that:

1.	 Problems with the administrative management system are resolved so that supplemental

    payments are issued promptly and accurately.


2.	 Policies and procedures on supplemental pay are clarified and disseminated to all managers
    and employees, including thorough definitions of the criteria for completing all assignments.

3.	 All supplemental payment criteria are applied, including quality control reviews.

4.	 Reliable supplemental payment reports are issued to the regional centers and local offices,
    including listing qualified applicants, the amounts they should be paid, and the amounts they
    have been paid.

Agency Response

1.	 Ensure that problems with the administrative management system are resolved so that
    supplemental payments are issued promptly and accurately.

    The Bureau concurs: The Census Bureau will establish a "Supplemental Pay Work Group"
    consisting of Dress Rehearsal administrative staff, field staff, and Decennial Management
    Division staff to review all issues related to supplemental pay, policies, and procedures, and
    to develop recommendations regarding the future of the Census 2000 Supplemental Pay
    program.

2.	 Ensure that policies and procedures on supplemental pay are clarified and disseminated to
    all managers and employees, including thorough definitions ofthe criteriafor completing
    all assignments.

    The Bureau concurs: The Census Bureau will establish a "Supplemental Pay Work Group"
    consisting of Dress Rehearsal administrative staff, field staff, and Decennial Management
    Division staff to review all issues related to supplemental pay, policies, and procedures, and
    to develop recommendations regarding the future of the Census 2000 Supplemental Pay
    program.




                                                15

u.s. Department ofCommerce                                   Audit Report No. STL-11052-8-0001
Omce ofInspector General                                                        September 1998
3.	 Ensure that all supplemental payment criteria are applied, including quality control
    reviews.

   The Bureau concurs: The Census Bureau will establish a "Supplemental Pay Work Group"
   consisting of Dress Rehearsal administrative staff, field staff, and Decennial Management
   Division staff to review all issues related to supplemental pay, policies, and procedures, and
   to develop recommendations regarding the future of the Census 2000 Supplemental Pay
   program.

4.	 Ensure that reliable supplemental payment reports are issued to the regional centers and
    local offices, including listing qualified applicants, the amounts they should be paid, and
    the amounts they have been paid.

   The Bureau concurs: The Census Bureau will establish a "Supplemental Pay Work Group"
   consisting of Dress Rehearsal administrative staff, field staff, and Decennial Management
   Division staff to review all issues related to supplemental pay, policies, and procedures, and
   to develop recommendations regarding the future of the Census 2000 Supplemental Pay
   program.

OIG Comments

We commend the Bureau for identifying actions to address our recommendations. The actions
planned will, if implemented, adequately address recommendations #2-4. However, with respect
to recommendation # I, while the Census response states the actions to be taken for Census 2000,
it does not mention any efforts already in place by the bureau to address the specific problems, as
described above, encountered during the dress rehearsal. These efforts should be detailed in the
bureau's audit action plan prepared in response to this final report.




                                                16

u.s. Department ofCommerce                                   Audit Report No. STL-l1052-B-0001
O(fice ofInspector General                                                      September 1998
IV. EMPLOYEE EVALUATIONS WERE NOT DONE

Employee evaluations have not been performed for individuals employed in the Sacramento dress
rehearsal. Productive personnel are being identified and recommended for rehire only on an
informal basis, even though Census has the personnel forms and database to produce formal
evaluations.

Capable, productive employees are necessary to meet the timeliness goals required by Census.
To ensure that enough qualified employees are obtained, the bureau strives to recruit 10
applicants for every position to be filled. The Sacramento office recruited about 9,500 applicants
and hired about 900. Many of the 900 individuals worked in multiple Census operations during
the dress rehearsal and will have the opportunity to be rehired for operations during the decennial
census. However, because it is not performing employee evaluations, the bureau cannot identify
which terminated employees are capable and productive and therefore should be rehired.

Census procedures and forms provide a method for evaluating employee performance on a
limited basis. The form D-291, which initiates official personnel actions and is the basis for
updating the administrative management database, contains a field that can be used to expand on
explanations of personnel actions. At the end of the dress rehearsal, most of the enumerators and
many clerical staff were terminated for lack of work. However, Census staff will be recruited for
other local offices during decennial operations. In the Sacramento County area, two local offices
will be opening for the decennial operation. To reduce organization confusion at the new offices,
Census plans to rehire the most capable, knowledgeable and productive staff used in the dress
rehearsal for key positions in the new offices. To maximize efficient operations, Census is
informally identifying such staff from the dress rehearsal operations for rehire.

We reviewed the personnel files of 100 employees to determine whether there was any indication
as to which of them should or should not be rehired. Although the D-291 form can accommodate
evaluations in the "Comments" field, it was not being used. In the 100 files reviewed, only two
forms had evaluation comments. One form recommended that the employee be rehired; the other
recommended that the employee not be hired. Upon reviewing the administrative database for
these individuals, we found that the recommendations had not been entered. We also found that
Census supervisors and managers were informally gathering lists of employees that were being
recommended for rehire. According to one supervisor, this was being done at the request of the
regional center.

Rather than identifying employees recommended for rehire on an informal basis, Census needs to
formalize the process so that, as much as possible, trained and experienced personnel are rehired.
Taking this action will reduce unnecessary recruiting and training efforts.

Another important reason for having accurate and complete information on employee
terminations is to be able to adequately handle, and where appropriate, refute, unemployment
claims. A 1994 OIG inspection found that inadequate or incomplete documentation was a
common problem in the 1990 Decennial Census, after which the bureau received more than
100,000 requests for wage and separation information, and the government paid $64 million in
decennial-related unemployment compensation. The report concluded that millions of dollars in

                                                17

u.s. Department of Commerce                                 Audit Report No. STL-11052-8-0001
Office ofInspector General                                                     September 1998

savings would result from having better management control in this area. We believe the same
holds true for the 2000 decennial.

Recommendations

We recommend that the Acting Director of the Bureau of the Census ensure that:

1.	 Fonnal evaluations are prepared for all employees, and that rehire recommendations are
    documented to assist in rehiring decisions during Census 2000.

2.	 Evaluations of all employees whose perfonnance is not acceptable is documented in the
    administrative management system.

Agency Response

1.	 Ensure that formal evaluations are preparedfor all employees, and that rehire
   recommendations are documented to assist in rehiring decisions during C2K.

   The Bureau does not concur: The Census Bureau requested and received approval from the
   Department of Commerce and the Office of Personnel Management to exclude census field
   workers from the General Work Force Perfonnance Appraisal System requirements as
   defined in the Code of Federal Regulations, Part 430. The reason for this request was to
   alleviate temporary supervisors from the responsibility of evaluating employee performance
   that otherwise meets perfonnance standards for these positions. Both administrative and field
   operations manuals provide specific guidance to Census supervisors on dealing with problem
   perfonners and conduct problems. Supervisors are required to complete forms D-283 and D­
   282, Documentation ojPerformance and Conduct Problems, that are attached to the D-150,
   Personnel Action Request, when submitted to the administrative staff in the LCO. The
   PAMS/ADAMS Operating Manual provides guidance to personnel clerks for processing
   Discharge separation actions with the appropriate personnel action code.

   The Census Bureau has recently modified the PAMS/ADAMS to exclude previous employees
   who were terminated for cause from the D-425, Selection Record. Only former employees
   who were separated in good standing and/or resigned their position will be listed as
   experienced employees (as long as the fonner employee was separated within the last 6
   months) separately on the selection certificates. This will allow census-selecting officials to
   re-employ desirable, experienced employees before employing new applicants. Former
   employees who did not work for the Census Bureau within the preceding 6 months, and were
   not previously discharged for cause, will be treated as new applicants and subject to
   employment suitability reviews.




                                               18

u.s. Department of Commerce                                Audit Report No. STL-11052-8-0001
Office ofInspector General                                                    September 1998
2.	 Ensure that evaluations ofall employees whose performance is not acceptable is
    documented in the administrative management systems.

   Problem resolved: See previous response regarding documentation procedures for poor
   performing employees.

OIG Comments

We are not recommending that Census implement any additional systems for performance
evaluations of temporary workers. We are recommending that Census utilize an existing data
field in Census form D-291 to document evaluation comments for all employees. We believe that
the benefits, namely identification of good and poor performing workers and information critical
to unemployment compensation determinations, are significantly greater than the cost of entering
the data in the ADAMS system. We therefore reaffirm our recommendations regarding employee
evaluations.




                                               19

u.s. Department of Commerce                                 Audit Report No. STL-l1052-8-0001
Omce o(Inspector General                                                       September 1998
V. POLICIES AND PROCEDURES NEED
TO BE DOCUMENTED AND ORGANIZED

Many administrative decisions, instructions, and procedures related to the dress rehearsal were
communicated orally and were not documented as required by sound management practices. An
example is the undocumented decision to use VISA checks for salary advances as a response to
late payroll checks.

Most local office documentation consisted of manuals, amendments, memorandums, and E-mail,
all of which were kept in files by the office manager. We found, however, that many oral
instructions and directives were not adequately documented, and were not available to all
managers and employees in an organized and documented format.

Census guidelines encourage consistent operational processes among all local offices, as
evidenced by Memorandum No. 98-42, which identifies Census offices and individuals
responsible for different issues. For example, guidance regarding oversight and liaison is to be
provided by the Budget, Management, Oversight Liaison Staff, which will designate its memos as
Decennial Oversight and Liaison Memorandums No. 98-01,02, etc..

To determine whether all administrative policies and procedures were available, complete, and
updated at both the Seattle regional center and the Sacramento office, we requested and reviewed
all policy and procedure documentation. We found at the regional center that policies and
procedures were not well organized or up-to-date. The center administrative staff could locate
memoranda only in response to our specific requests, could not ensure that copies of all
memoranda were obtained, and were unsure as to how to order replacements.

At the Sacramento office, all manuals, amendments, memoranda, and E-mails were kept
permanently in a central location, in designated notebooks at the manager's desk. Copies were
also distributed to appropriate supervisory personnel. We inventoried the available administrative
related policies and procedures and verified the presence of applicable documents at the local
office. We found that documentation was generally complete at the local office except for orally
transmitted instructions and directives.

Recommendation

We recommend that the Acting Director of the Bureau of the Census ensure that:

1.	 Regional center managers require that all administrative and program instructions that have
    been provided orally also be communicated as written documents.




                                               20

u.s. Department ofCommerce                                Audit Report No. STL-l1052-8-0001
Office ofInspector General                                                   September 1998
Agency Response

1.	 Ensure that Regional Census Center managers require that all administrative and program
    instructions that have been provided orally also be communicated as written documents.

   The Census Bureau concurs with the intent of this recommendation: The responsibility
   for ensuring written administrative and program guidance for decennial activities lies with
   Census Bureau headquarters, not the RCCs. The Census Bureau recently consolidated a list
   of all memorandum series that are issued by field headquarters for use by the RCCs. Each
   memorandum series was identified by a brief description and the names of appropriate
   contacts to call to obtain additional copies. The Field Division, in conjunction with the
   RCCs, developed generic cc:MAIL accounts to ensure the distribution of all memoranda to a
   centralized location. RCC staff is responsible for disseminating copies of these memoranda
   (which includes administrative and program instructions) to the LCOs, as appropriate. This
   provides for consistency in implementing administrative and operational procedures and
   should ensure the written documentation of Bureau-wide policies and procedures.

OIG Comments

We concur with Census' proposed course of action. We commend the Bureau for initiating
actions to adequately address our recommendation.




                                              21

                                                                        APPENDIX .1.
                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      Bureau of the Census
                                                      Washington. DC 20233-0001

                                                      OFFICE OF THE DIRECTOR

                                                      SEP 30 /998
MEMORANDUM FOR	              George E. Ross
                             Assistant Inspector General for Auditing

Through:	                    Robert J. Shapin~"
                             Under Secretary for Economic Affairs

From:                        James F. Holmes
                             Acting Director

Subject:	                    Sacramento Dress Rehearsal Identifies Needed Improvements
                             in Personnel Administration
                             Draft Audit Report No. STL-II052-8-XXXX


This is in response to your memorandum of August 31, 1998, transmitting the above-referenced
draft audit report regarding the Sacramento Dress Rehearsal. The purpose of the Dress Rehearsal
is to identify any technical and operational difficulties in the Census 2000 plan with the full
expectation that there will be some difficulties. The success of the Dress Rehearsal can be
gauged by its ability to provide the Bureau with information about what worked well and what
areas need improvement. A successful Dress Rehearsal will also provide the Bureau with ideas
with how to improve operations that did not function as well as expected. On this measure, the
Dress Rehearsal has been a success, not only because the Census Bureau was able to hire
sufficient staff, achieve targeted mail response rates, and complete operations on schedule, but
also because we did learn about areas where we need make improvements, some of which have
already been addressed. Indeed, the Office of Inspector General (GIG) has been very helpful in
working with the Bureau to identify these areas of concern, and the Bureau is appreciative of the
OIG's input.

Your report includes the following recommendations:


I-I)	 Ensure that all applicants' prior employment andforeign language capabilities are
      verified as required by procedures.

     The Bureau concurs: The D-517, Testing and Selecting Manual, provides procedures for
     conducting preemployment reference checks, as well as procedural guidance for evaluating
     bilingual applicants' English language proficiency when language is determined to be a
     selective factor by the selecting official. The Census Bureau is in the process of reviewing
     our procedures for preemployment reference checks, and we will reinforce the importance of
     following these procedures in a Regional Census Center Administrative Memorandum to all
     regional directors.
                                                                                                  2

/-2) Ensure that all selection guides are completed and included in each applicant's files as
     required by Census procedures.

    The Bureau concurs: Existing selection guides (D-269A-D) are intended to aid selecting
    officials in detennining which applicants are best qualified for Local Census Office (LCO)
    positions. The Census Bureau will reinforce the requirement for using selection guides to
    interview all qualified candidates to ensure selections are made in accordance with merit
    system principles and EEO guidelines for fair and equitable treatment. The Census Bureau
    will underscore the importance of this issue and restate the need for management to ensure
    the inclusion of completed selection guides in applicant files through the issuance of a
    Regional Census Center (RCC), Administrative Memorandum to be issued to all regional
    directors.


/-3)	 Ensure that applicant-hiring decisions are reviewed by supervisors when questions arise
      regarding the suitability ofapplicants.

    The Bureau concurs: Selection Aid instructions include guidance to selecting clerks on
    reviewing applications for employment suitability. Procedural guidance provides for a
    second-level review (by supervisory personnel) BEFORE applicants are detennined to be
    unsuitable for hiring. Many factors are consi~ered, including a review of selection interview
    results, reference checks with previous employers, and successful completion of a criminal
    history background check. The Field Division recently distributed a Regional Census
    Center Administrative Memorandum that provides additional guidance on making suitability
    detenninations, including the reviews by higher-level managers, to ensure fair and equitable
    treatment of all applicants. For Census 2000 operations, the Census Bureau will update the
    administrative and recruiting office manuals to reflect the additional guidance provided in
    the memorandum.

/-4)	 Ensure that language skills are correctly identified and keyed into the
      administrative system.

     The Bureau concurs: All applicants complete the BC-170, Census Employment Inquiry,
     which asks the applicants to indicate his or her ability to speak a language other than English
     and to identify the degree of proficiency. Applicant data are keyed and/or scanned into the
     automated Preemployment Administrative Management System (P AMS). In addition,
     procedural guidance instructs the recruiting assistants to review applications at the time of
     testing to ensure all items are completed. The Census Bureau will further reinforce this
     requirement by addressing the importance of the application review process and subsequent
     data capture of all items in a Regional Census Center Administrative Management
     Memorandum.
                                                                                                 3

/-5) Ensure access to the administrative management system databases is better controlled.

    The Bureau concurs: Currently, access to the PAMS/ADAMS database is controlled by
    the P AMSIADAMS staff at headquarters. The Regional Census Center Automation
    Supervisor is responsible for coordinating all requests for user identification with the
    headquarters staff. For Census 2000, we are implementing internal auditing.procedures that
    will track all changes in the P AMSIADAMS to the user level to ensure accountability for all
    personnel and payroll transactions. The Field Division will update the D-581,
    PAMSIADAMS Operating Guide, to include the user classes with appropriate controls when
    determining user classifications.


//-l)Ensure that the daily time sheet (Form D-308) is modified so that time worked by an
     employee in multiple assignment areas on a single day can be recorded on one form.

    Problem resolved: The Census Bureau has lifted the requirement that enumerators submit
    multiple time sheets for multiple assignments. In Census 2000, enumerators will submit one
    time sheet for the entire workday.


II-2)Ensure that the automated pay systems (ADAMS) be modified so that multiple daily time
     sheets for an employee are flagged on an exception report for review and validation by an
     appropriate official.

    The Bureau concurs: The Census Bureau will review ~urrent procedures and system
    requirements needed to develop an edit that will identify multiple and/or duplicate time
    sheets submitted for the same day and generate an exception list for review by appropriate
    payroll/personnel staff.


II/-3) Ensure that complete training records are kept so that Census can compare the
     attendance records with the daily payroll sheets.

    The Bureau agrees that the issue is important, but believes it is better addressed
    through the following: The current system already includes a built-in check that ties actual
    training participation of selected employees to the payroll process and ensures that selected
    employees who are paid for training activities actually reported to training. Procedures have
    been implemented to address this concern. The Census Bureau has made modifications to
    PAMS to require the automated creation of the D-275, Record ofTraining, when applicants
    are selected for positions. The D-275 is printed and attached to the appointment folders for
    use by the trainers (Crew Leaders). Trainers are instructed to indicate the applicant's status
    on the D-275 (that is, whether or not the applicant showed up for training). The daily pay
    and work record (D-308) will not be accepted unless the selectee attended the training and
                                                                                               4

the Trainer/Crew Leader has signed the D-308. The D-275 is used to update the applicant's
status in the PAMS/ADAMS system, and without the status being updated daily, pay sheets are
not accepted.


II-4)Ensure that procedures are modified so that managers have an option to either give
     advanced written approvalfor overtime or approve a limited amount ofovertime, after the
    fact, when an employee can adequately document that advance approval was not practical
     and that the overtime was necessary and the most efficient use ofgovernmentfunds for
     accomplishing an assigned task.

    The Bureau concurs: The Census Bureau will send a Regional Census Center
    Administrative Management Memorandum to the regional directors documenting the
    existing overtime procedures. Overtime can be approved verbally in advance by the Area
    Managers, and followed up with written approval on Form CD-81, Requestfor
    Authorization ofOvertime and Compensatory Hours, by the regional director or the assistant
    regional census manager. The Census Bureau will provide enough flexibility at the regional
    level to approve a limited amount of overtime after the fact, as justified, on a case-by-case
    basis. However, the Census Bureau is not inclined to establish a broad policy on this issue
    due to the large numbers of employees expected to be hired for Census 2000, and the
    opportunities such a policy would create for fraud and abuse.


II-5)Ensure that Census does not reimburse employees for expenses over $5 if receipts are not
     attached to payroll forms.

    The Bureau concurs: Currently, Census Bureau auditing procedures require clerks to
    disallow claims over $5 if receipts are not attached. For Census 2000, the Census Bureau
    will modify the ADAMS to give a warning message to data entry clerks who key in the
    amount of reimbursements to remind them of the documentation requirement. In addition,
    the Census Bureau will reemphasize this requirement in a Regional Census Center
    Administrative Memorandum to the regional directors.


11-6)Ensure that specific procedures be published to require that all parts ofa check be
    completed when issued, and that distribution be adequately controlled and safeguarded,
    which includes maintaining a check register.

    Problem resolved: For Census 2000 address listing, the Census Bureau has canceled the
    use of the VISA check program and replaced the VISA checks with American Express
    Travelers Checks. The Census Bureau has issued revised program guidance and
    implementation instructions in a Regional Census Center Administrative Memorandum to
    all regional directors. Administrative control procedures are in place that include
                                                                                                5

    safeguarding checks in a locked safe with controlled and limited access, control registers

    that identify travelers checks serial numbers, date of issuance, and signature of employee

    (certifying the receipt of the check). The Field Division's Decennial Personnel/Payroll staff

    at headquarters, along with the Finance Division, are monitoring the issuance of the checks,

    as well as reviewing weekly payroll deduction registers produced by the ADAMS to ensure

    the deductions are being made by Regional Census Center (RCC) administrative staff.



lII-I)Ensure that problems with the administrative management system are resolved so that
     supplemental payments are issuedpromptly and accurately.

    The Bureau concurs: The Census Bureau will establish a "Supplemental Pay Work
                                                                                                     ,/
    Group" consisting of Dress Rehearsal administrative staff, field staff, and Decennial
    Management Division staff to review all issues related to supplemental pay, policies, and
    procedures, and to develop recommendations regarding the future of the Census 2000
    Supplemental Pay program.


111-2)Ensure that policies and procedures on supplemental pay are clarified and disseminated
    to all managers and employees, including thorough definitions ofthe criteria for
    completing all assignments.

    See response to Recommendation III-I.


111-3)Ensure that all supplemental payment criteria are applied, including quality control
    reviews.

    See response to Recommendation III-I.

                                                                                              6
111-4)Ensure that reliable supplemental payment reports are issued to the regional centers and
    local offices, including listing qualified applicants, the amounts they should be paid, and
    the amounts they have been paid.

    See response to Recommendation III-I.


IV-I)Ensure that formal evaluations are prepared for all employees, and that rehire
   .recommendations are documented to assist in rehiring decisions during e2K.
                                                                                              ....   ;.   ,.




                                                                                                6

    The Bureau does not concur: The Census Bureau requested and received approval from
    the Department of Commerce and the Office of Personnel Management to exclude census
    field workers from the General Work Force Performance Appraisal System requirements as
    defined in the Code of Federal Regulations, Part 430. The reason for this request was to
    alleviate temporary supervisors from the responsibility of evaluating employee performance
    that otherwise meets performance standards for these positions. Both administrative and
    field operations manuals provide specific guidance to census supervisors on dealing with
    problem performers and conduct problems. Supervisors are required to complete forms D­
    283 and D-282, Documentation ofPerformance and Conduct Problems, that are attached to
    the D-150, Personnel Action Request. when submitted to the administrative staff in the
    LCO. The PAMS/ADAMS Operating Manual provides guidance to personnel clerks for
    processing Discharge separation actions with the appropriate personnel action code.

    The Census Bureau has recently modified the PAMS/ADAMS to exclude previous
    employees who were terminated for cause from the D-425, Selection Record. Only former
    employees who were separated in good standing and/or resigned their position will be listed
    as experienced employees (as long as the former employee was separated within the last 6
    months) separately on the selection certificates. This will allow census-
    selecting officials to re-employ desirable, experienced employees before employing new
    applicants. Former employees who did not work for the Census Bureau within the
    preceding 6 months, and were not previously discharged for cause, will be treated as new
    applicants and subject to employment suitability reviews.


IV-2)Ensure that evaluations ofall employees whose performance is not acceptable is
    documented in the administrative management systems.

    Problem resolved: See response to Recommendation IV-I regarding documentation
    procedures for poor performing employees.


V-l)Ensure that Regional Census Center managers require that all administrative and
    program instructions that have been provided orally also be communicated as written
    documents.

    The Census Bureau concurs with the intent of this recommendation: The responsibility
    for ensuring written administrative and program guidance for decennial activities lies with
    Census Bureau headquarters, not the RCCs. The Census Bureau recently consolidated a list
    of all memorandum series that are issued by field headquarters for use by the RCCs. Each
    memorandum series was identified by a brief description and the names of appropriate
    contacts to call to obtain additional copies. The Field Division, in conjunction with the
    RCCs, developed generic cc:MAIL accounts to ensure the distribution of all memoranda to a
    centralized location. RCC staff is responsible for disseminating copies of these memoranda
    (which includes administrative and program instructions) to the LCOs, as appropriate. This
    provides for consistency in implementing administrative and operational procedures and
    should ensure the written documentation of Bureau-wide policies and procedures.
                                                         UNITED STATES DEPARTMENT OF           CO,..'MER~E
                                                         The Inspector General
                                                         Washington. D.C. 20230




September 30, 1998

MEMORANDUM FOR:	 James F. Holmes
                                                                             FILE COpy
                 Acting Director
                 Bureau of the Census


FROM:                      Johnnie E. Frazier
                           Acting Inspector General

SUBJECT:                   Sacramento Dress Rehearsal Identifies
                            Needed Improvements in Personnel Administration
                           Final Audit Report No. STL-l1 052-8-000 1
                           September 1998

Attached is the final report on our review of personnel administration during the Bureau of
Census' Sacramento Dress Rehearsal. Four copies of the audit report have been sent to the
Census audit liaison. Our findings and recommendations are highlighted in the executive
summary beginning on page i and our complete recommendations are on pages 5, 11, 15, 18 and
20.

We have reviewed the Bureau's response to the draft report and appreciate the comments
provided. Census concurred with most of our recommendations and has already initiated actions
to adequately address those recommendations. The Bureau's response is summarized following
each report segment's recommendations. The Bureau's entire response is included as
Appendix I.

In accordance with DAO-213-5, you have a maximum of 60 days to submit, for our concurrence,
an audit action plan for implementation for each of the report's recommendations. Exhibit 7 of
the DAO should be used to format the audit action plan. The plan should include specific details
and dates as to how and when each recommendation will be implemented. The plan must also
include the rationale and/or legal basis for not implementing any of the recommendations.

Please inform the Office of Inspector General of the names of the key officials responsible for
resolution of this audit. If you or those officials have any questions regarding preparation of the
audit action plan, please contact Ray McIntosh, Regional Inspector General for Audits, Seattle
Regional Office, at (206) 220-7970.

We appreciate the cooperation and courtesies extended to us by officials of the Bureau of the
Census during the review.

Attachments

cc:   Robert 1. Shapiro, Under Secretary for Economic Affairs
                            DISTRIBUTION LIST

       SACRAMENTO DRESS REHEARSAL IDENTIFIES NEEDED IMPROVEMENTS

                      IN PERSONNEL ADMINISTRAnON

                  FINAL AUDIT REPORT NO. STL 11052-8-0001


No. of Copies    Distribution                                             Date Sent

  1
             James F. Holmes, Acting Director
                                                    /
                  Bureau of the Census                                      ./
  1              Robert J. Shapiro, Under Secretary for Economic Affairs v"
  1
             Moises M. Carrasco, Seattle Regional Director V
                  Bureau of the Census
  4              Pat Boteler, Audit Liaison, Census V
  1              W. Scott Gould, Chief Financial Officer and Assistant Secretary for ..---.

                 Administration, Room H5830

  1              Linda Bilmes, Deputy Assistant Secretary for Administration .,.,/

  1              Kent Hughes, Associate Deputy Secretary, Room H5027 ~

  1              Stephen C. Browning, Director, Office of Management and ~

                  Organization, Room H5327

  1              Johnnie E. Frazier, Acting Inspeyr General   v"
  2               George E. Ross, AIG/Auditing
  1              Larry Gross, DAIG/Regional Audits
  1              Elizabeth Barlow, Counsel of the Inspector General V
                 . - for Public Release
  1              Allan Fisher, AIG/C9mpliance and Administration
                   - Publications v
  1                - Information Center ~                                      ~
  1
             Jill Gross, Acting AIG/Inspections and Progr~ Evaluations
  1              Annie Holmes, Management Assistant ~
  5              Ray McIntosh, Regional Inspector General for Audits / '
  2               Bill Bedwell, Regional Inspector General for Audits .../"
